os

v

IN THE COUNTY COURT OF DOUGLAS COUNTY,

NEBRASKA

EW TRIAL

THE STATE OF NEBRASKA, ) CASE NO. CR 18-1581
) i
Plaintiff, )
vs. )
) MOTION FOR N!
AUGUSTINE CAVITTE, )
)
Defendant. )

COMES NOW the Defendant, Augustine Cavitte , by and through her attorney, Bethany

Stensrud, Assistant Public Defender, and pursuant to Neb. Rey, Stat. 2!

9-2101 and 29-2103 et

seq. moves the court to issue an order for a new trial on the following grounds that materially
(

affected the defendant’s substantial rights:
1. That there were irregularities in the proceedings of the Cou

attorney, and the witnesses for the State prejudicial to the ri

it, the prosecuting

ights of the Defendant;

2. That there were abuses of discretion by the trial court which: prevented the Defendant

from having a fair trial;
3. That the verdict was not supported by sufficient evidence;

4. That the verdict is contrary to law;

5. That the errors of law on the part of the trial court prevented, the Defendant from

having a fair trial;
6. That the Court erred in giving the instructions herein and in

instructions;

giving each of said

7. That the Court erred in not sustaining Defendant’s motion for directed verdict made

at the close of the State’s evidence;

8. That there was misconduct of the jury which prevented the Defendant from having a

fair trial;

+

 
 
  
 

    

ue eA HEBRISHA
WAR 27 2018

. FRIEND
JOHN RICT COURT.

       

 

 
 

Defendant from having a fair trial;

9. That there was misconduct of the prosecuting attorney whith prevented the

10. That there was error of law occurring at the trial with prevented the Defendant from

having a fair trial.

WHEREFORE, the Defendant prays that the Court to issue the

 

CERTIFICATE OF SERVICE

The undersigned hereby certifies that a true copy of the above and foregoing Motion for

New Trial was was personally served on Jay Klimes, City Prosecutor,
delivery to his office, this 27" day of March 2019.

Hall of Justice, by hi

 

 

 
